NO. 20-1599
IN THE

Supreme Court of the United States
JOHN DOE 7, JANE DOE 7, JUANA DOE 11, MINOR DOE
11A, SEVEN SURVIVING CHILDREN OF JOSE L OPEZ 339,
and JUANA PEREZ 43A,
Petitioners,
v.
CHIQUITA BRANDS INTERNATIONAL, INC.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

MOTION FOR LEAVE TO FILE BRIEF OF AMICI
CURIAE PARTNERS IN JUSTICE
INTERNATIONAL AND CENTER FOR VICTIMS
OF TORTURE AND BRIEF OF AMICI CURIAE IN
SUPPORT OF PETITIONERS’ PETITION FOR A
WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 29.5, I certify
that on July 8, 2021, three copies of the MOTION FOR
LEAVE TO FILE BRIEF OF AMICI CURIAE
PARTNERS IN JUSTICE INTERNATIONAL AND
CENTER FOR VICTIMS OF TORTURE AND BRIEF OF
AMICI CURIAE IN SUPPORT OF PETITIONERS’
PETITION FOR A WRIT OF CERTIORARI in the abovecaptioned case were served on the following by overnight
FedEx:
1

Kevin K. Russell
Goldstein and Russell. P.C.
7475 Wisconsin Avenue. Suite 850
Bethesda, MD 20814
(202) 382-0636
Attorneys for Petitioner
Michael Lawrence Cioffi
Blank Rome
1700 PNC Center
201 East Fifth Street
Cincinnati, OH 45202
(513)-362-8701
Attorneys for Respondent
Peter A. Nelson
Patterson Belknap Webb & Tyler LLP
1133 Ave. of the Americas
New York, NY 10036
(212) 336-2000
Attorneys for Amici American Civil Liberties Union et al.
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on July 8, 2021
___________________
Christina G. Hioureas
2

